OIG Investigative Reports, Press Release: Scranton, PA October 15, 2009 - Federal Officials Announce the filing of a Criminal Information Charging a Luzerne County Businessman with Corrupt Payment of a Reward for Official Action
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Report
U.S. Department of Justice
United States Attorney’s Office
Middle District of Pennsylvania
William J. Nealon Federal Building
Suite 311
235 N. Washington Avenue
P.O. Box 309
Scranton, PA 18503-0309
Phone: (570) 348-2800
Fax : (570) 348-2037/348-2830 or (570) 348-2830
Ronald Reagan Federal Building
228 Walnut Street
P.O. Box 11754, Suite 220
Harrisburg, PA 17108-1754
Phone: (717) 221-4482
Fax:  (717) 221-2246 or  (717) 221-4493
Herman T. Schneebeli Federal Building
240 West Third Street
Suite 316
Williamsport, PA 17701-6465
Phone: (570) 326-1935
Fax: (570) 326-7916
PRESS RELEASE
FOR IMMEDIATE RELEASE:
October 15, 2009
Dennis C. Pfannenschmidt
U.S. Attorney
(717) 221-4482
FEDERAL OFFICIALS ANNOUNCE THE FILING OF A CRIMINAL INFORMATION CHARGING A LUZERNE COUNTY BUSINESSMAN WITH CORRUPT PAYMENT OF A REWARD FOR OFFICIAL ACTION
Dennis C. Pfannenschmidt, United States Attorney for the Middle District of
Pennsylvania; Janice Fedaryck, Special Agent in Charge, Federal Bureau of Investigation;
Don Fort, Special Agent in Charge, Internal Revenue Service-Criminal Investigation
Division; and, Mary Mitchelson, Acting Inspector General of the U.S. Department
of Education, Office of Inspector General jointly announced today that an Information
was filed today charging Richard Emanski, 65, of Harvey’s Lake, Pennsylvania,
with corrupt payment of a reward for official action, in violation of Title
18, United States Code, section 666(a)(2). The Information alleges that Emanski
provided and installed free carpeting of a value of more than $1,000 but
less than $5,000 in the residence of a member of the Wilkes-Barre Area School
District Board of Education as a reward for support provided by the Board Member
for a contract that benefitted Emanski’s business.
Emanski faces a maximum of ten years’ imprisonment and a fine of up to $250,000.
According to U.S. Attorney Pfannenschmidt, Emanski is the seventeenth person charged with criminal conduct since late January of this year in an on-going investigation targeting public corruption in Luzerne County.
In January 2009, Mark Ciavarella and Michael Conahan, the former President Judges of the Court of Common Pleas of Luzerne County, were charged with engaging in honest services fraud and tax conspiracy. Ciavarella and Conahan were indicted by a federal grand jury on racketeering and other charges on September 9, 2009.
William Sharkey, the former Court Administrator of Luzerne County, has pleaded guilty to embezzlement charges and is awaiting sentencing.
Sandra Brulo, the former Deputy Director of Forensic Programs for the Luzerne County Probation Office, has pleaded guilty to obstruction of justice and is awaiting sentencing.
In addition, On April 20, 2009, Brian Dunn, age 45, a member of the school board for the Wilkes-Barre Area School District, was charged in a criminal complaint with allegedly accepting cash in connection with the hiring of teachers and the awarding of contracts by the Wilkes-Barre Area School District.
On May 18, James Height, age 53, of Wilkes-Barre, Pennsylvania, who earlier had resigned as President of the Wilkes-Barre Area School District Board of Education, was charged in a criminal information with allegedly accepting $2,000 in cash in connection with support he provided to a contractor in connection with an attempt by the contractor to obtain a contract with the Wilkes-Barre Area School District. Mr. Height has pleaded guilty to the charge and is awaiting sentencing.
On May 20, 2009 Dr. Ross Scarantino, age 63, of Duryea, who tendered his resignation as Pittston Area School District Superintendent, was charged in a criminal information with allegedly accepting $5,000 in cash in connection with support he provided to a contractor in connection with the contractor obtaining a contract with the Pittston Area School District. Dr. Scarantino was sentenced to 13 months in federal prison on October 8, 2009.
On June 9, 2009, Attorney Robert Powell was charged in a two-count information with misprision of a felony and being an accessory after the fact. Powell has pleaded guilty to the charges and is awaiting sentencing.
On August 4, 2009, Karen Holly, age 51, of West Pittston, Pennsylvania, was charged
in an information with theft of more than $5,000 from the Wyoming Valley Sanitation
Authority, an agency receiving federal funds. Ms. Holly has pleaded guilty and
is awaiting sentencing.
On August 10, 2009, Joseph Oliveri, a former member of the school board for the Pittston Area School District, was charged in an information with the corrupt receipt of a reward for his official action concerning the awarding of a contract by the Pittston Area School District. Mr. Oliveri has pleaded guilty and is awaiting sentencing.
On August 13, 2009, Robert K. Mericle was charged with misprision of a felony. Mr. Mericle has pleaded guilty and is awaiting sentencing.
Gerald Bonner, a member of the Luzerne County Housing Authority, was indicted on September 1, 2009, on a charge of corrupt receipt of a reward/bribe.
On September 11, 2009, William Maguire, another member of the Luzerne County Housing Authority, was also charged with corrupt receipt of a reward.
On September 15, 2009, current Wilkes-Barre Area School District Board of Education
member Frank Pizzella was charged in an indictment with conspiracy to corruptly
give $5,000 in cash to a member of the Board of Education in connection with
the hiring of a teacher in 2004.
On October 1, 2009, Luzerne County resident Barton Weidlich was charged with attempted obstruction of justice.
On October 15, 2009, Howard Allen Bellas, who was recently suspended as director of the Luzerne County Redevelopment Authority, was charged in an Information with corrupt receipt of a reward.
Also as a result of the investigation, former Luzerne County Prothonotary Jill Moran resigned from her office and voluntarily agreed to the entry of a court order directing her to cooperate with the on-going federal public corruption probe looking into allegations of misconduct at the Luzerne County Courthouse.
On April 8, 2009, the FBI issued a statement requesting the public’s assistance in this on-going investigation. Anyone with information is asked to call the public corruption task force toll free at 1-866-996-4320.
This case is part of an on-going investigation by the Federal Bureau of Investigation, the Internal Revenue Service and the United States Department of Education and is being prosecuted by a team of federal prosecutors led by Senior Litigation Counsel Gordon Zubrod and includes Assistant U.S. Attorneys William Houser, Michael Consiglio, Amy Phillips and Criminal Division Chief Christian Fisanick. Pfannenschmidt praised this team of investigators and prosecutors for their tireless efforts on behalf of the people of Luzerne County.
****
An Indictment or Information is not evidence of guilt but simply a description of the charge made
by the Grand Jury and/or United States Attorney against a defendant. A charged Defendant is
presumed innocent until a jury returns a unanimous finding that the United States has proven the
defendant’s guilt beyond a reasonable doubt or until the defendant has pled guilty to the
charges.
Top
Printable view
Last Modified: 10/19/2009
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov